#20-5236

IN THE SUPREME COURT OF THE UNITED STATES

Russell Rope,
Petitioner,
vs.
Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.,
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,
Proof of Service
On Petition for Rehearing
Petition for Extraordinary Writ
Specifically for Writs of both Mandamus & Prohibition
The United States Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921 + SCOTUS #19-5616

PROOF OF SERVICE OF [EMERGENCY] PETITION FOR REHEARING

I, Russell Rope, declare that on the date of October 17, 2020, as normally required by
Supreme Court, that I have served the enclosed EMERGENCY: APPLICATION TO
PROCEED IN FORMA PAUPERIS, PETITION FOR REHEARING and AFFIDAVIT &
CERTIFICATION OF A PARTY UNREPRESENTED BY COUNSEL on each party to the
above proceeding (including judges), specifically on their counsel by both electronically
filing said documents in the Ninth Circuit and emailing where they have previously
agreed to electronic service. Furthermore, Petitioner is exempt from traditional methods
of serving Respondents for the following reason:
SCOTUS Rule 29.3:
"...unless the party filing the document is proceeding pro se and in forma pauperis..."

Proof of Service of [Emergency] Petition for Extraordinary Rehearing @ SCOTUS; Case # 20-5236; Page # 1 of 2

Plaintiff is both pro se and in forma pauperis. The rule is not clear as what exactly to do
in this extraordinary situation, but other SCOTUS instructions and rules give reason for
Petitioner to believe The Court can and will provide service if unbelievably necessary.

Names & Addresses of Served Attorneys & Judges as Follows:
Alphabet Inc. & Twitter, Inc. Attorneys:
Bali, Sunita @ sbali@perkinscoie.com
Snell, James G. @ jsnell@perkinscoie.com
Apple, Inc. Attorneys:
Erickson, Ryan Bodine @ rerickson@lewisllewellyn.com
Furman, Rebecca @ bfurman@lewisllewellyn.com
Facebook, Inc. Attorneys:
Malhotra, Paven @ pmalhotra@keker.com
Mehta, Neha @ vmehta@levvisllewellyn.com
JPMorgan Chase & Co. Attorneys:
Watson, Brett D. @ bwatson@ldattornevs.com & bwatson@cozen.com
Trial-Court Judge(s):
Michael W. Fitzgerald @ MWF Chambers@cacd.uscourts.gov
Paul. L. Abrams @ pla chambers@cacd.uscourts.gov
Circuit Court Judges Via CM/ECF @ ca9.uscourts.gov/cmecf

I declare under penalty of perjury, that to the best of my knowledge, all of the
aforementioned is true and correct.

/s/
ROPE 10/17/2020
Petitioner & Plaintiff In Pro Per
(310) 663-7655

Proof of Service of [Emergency] Petition for Extraordinary Rehearing @ SCOTUS; Case # 20-5236; Page # 2 of 2

